                National Aeronautics and Space Administration

                    OFFICE OF INSPECTOR GENERAL




                  NASA’s Efforts to Identify
                Near-Earth Objects and Mitigate
                           Hazards




                             OFFICE OF AUDITS
IG-14-030
                                 AUDIT REPORT
(A-13-016-00)
                              SEPTEMBER 15, 2014
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ATLAS                  Asteroid Terrestrial-impact Last Alert System
DARPA                  Defense Advanced Research Projects Agency
FY                     Fiscal Year
JPL                    Jet Propulsion Laboratory
KaBOOM                 Ka-Band Objects Observation and Monitoring Project
LINEAR                 Lincoln Near-Earth Asteroid Research
LSST                   Large Synoptic Survey Telescope
NEA                    Near-Earth Asteroid
NEO                    Near-Earth Object
NEOCam                 NEO Camera
NPD                    NASA Policy Directive
NPR                    NASA Procedural Requirements
NRC                    National Research Council
NSF                    National Science Foundation
OIG                    Office of Inspector General
OSIRIS-Rex             Origins-Spectral Interpretation-Resource Identification-Security-
                       Regolith Explorer Project
Pan-STARRS             Panoramic Survey Telescope and Rapid Response System 1 and 2
PHO                    Potentially Hazardous Object
SST                    Space Surveillance Telescope
WISE                   Wide-field Infrared Survey Explorer


                                                                  REPORT NO. IG-14-030
SEPTEMBER 15, 2014




                                                                                       OVERVIEW

       NASA’S EFFORTS TO IDENTIFY NEAR-EARTH OBJECTS AND
                       MITIGATE HAZARDS
                                                                                         The Issue

   Scientists classify comets and asteroids that pass within 28 million miles of Earth’s orbit
   as near-Earth objects (NEOs). Asteroids that collide and break into smaller fragments are
   the source of most NEOs, and the resulting fragments bombard the Earth at the rate of
   more than 100 tons a day. Although the vast majority of NEOs that enter Earth’s
   atmosphere disintegrate before reaching the surface, those larger than 100 meters
   (328 feet) may survive the descent and cause destruction in and around their impact sites.
   Furthermore, even smaller
                                            Figure 1. Photograph of Chelyabinsk Meteor
   objects that disintegrate before
   reaching Earth’s surface can
   cause significant damage. For
   example, in February 2013 an
   18-meter (59 foot) meteor
   exploded 14.5 miles above the
   city of Chelyabinsk, Russia,
   with the force of 30 atomic
   bombs, blowing out windows,
   destroying buildings, injuring
   more than 1,000 people, and
   raining down fragments along
   its trajectory (see Figure 1).
   Recent research suggests that
                                       Source: AP Photo/AP Video, February 15, 2013.
   Chelyabinsk-type events occur
   every 30 to 40 years, with a greater likelihood of impact in the ocean than over populated
   areas, while impacts from objects greater than a mile in diameter are predicted only once
   every several hundred thousand years.

   In 1992, NASA began conducting scientific workshops and research into the
   identification, characterization, and tracking of NEOs, as well as into potential mitigation
   strategies. NASA reported NEOs with a diameter greater than 1 kilometer (0.62 miles)
   posed the greatest hazard to Earth and predicted a comprehensive survey could identify
   most NEOs of this size within a decade.1 In 1994, the House Committee on Science,
   Space, and Technology requested NASA identify and catalogue within 10 years the
   orbital characteristics of all comets and asteroids greater than 1 kilometer in diameter and
   1
       The Spaceguard Survey, “Report of the NASA International Near-Earth-Object Detection Workshop,”
       January 25, 1992.



REPORT NO. IG-14-030
                                                                                                       OVERVIEW



     in an orbit around the Sun that crosses the orbit of the Earth.2 Four years later, NASA
     established a NEO Program Office to coordinate these efforts.3 In addition, the NASA
     Authorization Act of 2005 required the Agency to implement a “program to detect, track,
     catalogue, and characterize the physical characteristics of near-Earth objects equal to or
     greater than 140 meters in diameter” and established a goal of cataloging 90 percent of
     these objects by 2020.4 However, even with a ten-fold increase in the NEO Program
     budget in the past 5 years – from $4 million in fiscal year (FY) 2009 to $40 million in
     FY 2014 – NASA estimates that it has identified only about 10 percent of all asteroids
     140 meters and larger. Moreover, given its current pace and resources, the Agency has
     stated that it will not meet the goal of identifying 90 percent of such objects by 2020.

     We initiated this review to examine NASA’s NEO Program and assess the Agency’s
     progress toward meeting statutory and other Program goals. Specifically, we reviewed
     NASA’s allocation and use of resources and plans for the future of the Program. Details
     of the review’s scope and methodology are in Appendix A.

     Results

     NASA has organized its NEO Program under a single Program Executive who manages a
     loosely structured conglomerate of research activities that are not well integrated and lack
     overarching Program oversight, objectives, and established milestones to track progress.
     In addition, NASA is undertaking NEO-related activities not managed by the Program
     and not sufficiently integrated into ongoing Program activities. Furthermore, NASA
     lacks formal agreements or procedures for NEO-related activities it conducts with other
     Federal agencies and foreign governments and has not taken advantage of possible
     partnership opportunities. Consequently, managers could not identify the level of
     resources required to adequately support the Program or explain how activities to which
     the NEO Program is contributing further Program goals. Even though the Program has
     discovered, categorized, and plotted the orbits of more than 11,000 NEOs since 1998,
     NASA will fall short of meeting the 2005 Authorization Act goal of finding 90 percent of
     NEOs larger than 140 meters in diameter by 2020. We believe the Program would be
     more efficient, effective, and transparent were it organized and managed in accordance
     with standard NASA research program requirements.

     Lack of Structure and Limited Resources Hinders the NEO Program. Since creation
     of the NEO Program, the number of identified NEOs has increased from less than 500 in
     1998 to over 11,000 as of July 2014. Most of this work occurred while the Program was
     relatively small – receiving only $4 million annually from FYs 2002 through 2009 and
     funding less than 20 individual efforts – and focused on identifying the largest NEOs.

     2
         United States Congress, H. R. 4489, Report No. 103–654, August 3, 1994.
     3
         In various documents, NASA refers to this research effort as the Near-Earth Object Observations
         Program. For ease of reference, we use “NEO Program” or “the Program” in this report.
     4
         Pub. L. No. 109–155, December 30, 2005 (codified at 42 U.S.C. § 16691).



ii                                                                                        REPORT NO. IG-14-030
OVERVIEW



   However, with the directive to identify 90 percent of NEOs larger than 140 meters,
   substantially increased budget beginning in FY 2011, and additional projects, the NEO
   Program’s existing structure and resources are inadequate to provide efficient, effective,
   and transparent program management.

   In FY 2013, the Program Executive oversaw a budget of $20.5 million and 64 funding
   instruments that included grants, purchase orders, and contract task orders to
   observatories and other facilities. With the Program budget growing to $40 million in
   FY 2014, the number of funding instruments will likely also increase and with it the
   Program Executive’s oversight responsibilities.

   In addition to limited personnel, the NEO Program lacks a plan with integrated
   milestones, defined objectives, and cost and schedule estimates to assist in tracking and
   attaining Program goals. To implement the goals of the 2005 Authorization Act, the
   Program provided funding to more ground-based observatories and obtained additional
   observation time at observatories such as the Panoramic Survey Telescope and Rapid
   Response System in Hawaii and the Arecibo Observatory in Puerto Rico (see Figure 2).
   In addition, the Program supports the
   work of NASA initiatives such as the              Figure 2. Arecibo Observatory
   Asteroid Redirect Mission and NEO
   Program personnel provide technical
   support for a Space Act Agreement with
   the B612 Foundation to assist in the
   development of a privately funded,
   space-based infrared telescope.5 Despite
   this increased activity, NASA has not
   changed or improved the NEO Program’s
   management structure and the Program
   has not established a plan to integrate the
   additional initiatives or track their
   contributions to attainment of NEO
   Program goals.

   In our judgment, the NEO Program            Source: NASA.
   would be better equipped to meet its
   goals if the Program followed NASA’s programmatic policies for research projects and if
   Program management established clear and verifiable requirements for processes
   pertaining to NEO detection, characterization, and mitigation.6


   5
       The Asteroid Redirect Mission, developed by NASA’s Human Exploration and Operations Mission
       Directorate, aims to fulfill the President’s call to send astronauts to a near-Earth asteroid. The mission
       objective is to identify, capture, redirect into a stable lunar orbit, and sample an asteroid with a mass up
       to 1,000 tons by the first half of the next decade.
   6
       NASA Procedural Requirements (NPR) 1080.1A, “Requirements for the Conduct of NASA Research
       and Technology (R&T),” May 30, 2008. NPR 7120.8, “NASA Research and Technology Program and
       Project Management Requirements (w/change 3 dated 04/18/13),” February 5, 2008.



REPORT NO. IG-14-030                                                                                                  iii
                                                                                                        OVERVIEW



     NASA Needs to Improve its Oversight of NEO Grants and Task Orders. NASA’s
     controls for managing and overseeing costs associated with the NEO Program are
     inadequate to ensure proper accounting of Agency-funded grants and task orders. First,
     we found that contrary to effective internal control standards, the NEO Program
     Executive is responsible for or has significant input into all the primary elements of the
     award process, including overseeing, monitoring, and evaluating the progress of awards.7
     Having the Program Executive perform all these tasks increases the risk of error or fraud
     in the Program.

     We also reviewed the 10 awards that exceeded $900,000 the NEO Program funded in
     FY 2013 and found the Program did not adequately oversee, monitor, or evaluate the
     progress of the work performed. For example, NASA recently awarded the Lincoln
     Near-Earth Asteroid Research Program a $6.5 million, 5-year grant via an interagency
     transfer in spite of a steep decline in its ability to provide NEO detection. In addition, we
     identified three instances in which NASA awarded grants when contracts would have
     been the more appropriate instrument for achieving Program goals. Although these
     grants supported some research, the majority of funds supported operations and
     maintenance on observatory facilities and therefore, pursuant to Federal law, NASA
     should have used a contract.8 Furthermore, a contract would have provided greater
     visibility into awardee operations and ensured the level of funding and awardee
     performance was commensurate with requirements and deliverables.

     Lack of Formal Agreements with Federal and International Partners Hampers
     NASA’s Ability to Accomplish Program Goals. Although NASA has established two
     formal partnerships with domestic, nongovernmental research organizations and several
     informal partnerships, a lack of planning and resources has prevented the NEO Program
     from developing additional partnerships that could help achieve Program goals. For
     example, establishing formal partnerships with the Department of Defense and the
     National Science Foundation could give the Program access to additional Earth-based
     telescopes, thereby increasing its ability to detect, track, and characterize a greater
     number of NEOs. Moreover, the NEO Program has not taken advantage of experience
     gained by other NASA programs, such as the International Space Station, that have
     formed international partnerships. Such expanded partnerships could accelerate
     discovery of NEOs, aid in development of global mitigation strategies, and help ensure
     that the burden of mitigating NEO threats does not disproportionately fall on NASA and
     the United States.




     7
         Government Accountability Office, “Standards for Internal Control in the Federal Government”
         (AIMD-00-21.3.1, November 1999).
     8
         31 U.S.C. § 6303, “Using Procurement Contracts.”



iv                                                                                      REPORT NO. IG-14-030
OVERVIEW



                                                                Management Action

   To improve NASA’s efforts to discover, characterize, and catalog NEOs and develop
   mitigation strategies, we recommended the Associate Administrator for the Science
   Mission Directorate develop a formal NEO Program with a strategic plan, integrated
   master schedule, and cost estimates. We also recommended the Associate Administrator
   direct the NEO Program Executive to develop and implement requirements, procedures,
   and internal controls to address deficiencies; perform a full-time equivalent analysis to
   determine the staff required to manage, oversee, and administer the Program; develop a
   plan to establish formal partnerships with domestic and international agencies to leverage
   resources and complementary technologies; and establish a systematic oversight process
   pursuant to which NASA-funded observatories are required to coordinate to avoid
   duplication of effort.

   In response to a draft of this report, the Associate Administrator concurred with our
   recommendations and agreed to establish a formal NEO Program in accordance with
   NASA guidance. He also stated the Program will conduct a full-time equivalent analysis,
   develop a plan to establish formal partnerships, and establish a coordination plan between
   observatories – all of which he promised will be documented in the NEO Program Plan.

   We consider NASA’s planned actions responsive and will close the recommendations
   upon verification of their completion. We also reviewed management’s comments
   regarding the technical accuracy of the draft and made changes as appropriate.
   Management’s full response to the draft report is reprinted in Appendix D.




REPORT NO. IG-14-030                                                                            v
SEPTEMBER 15, 2014




                                                         CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 8

   RESULTS
      Existing NEO Program Management Structure Not
         Commensurate with Increased Resources and
         Expanded Responsibilities ____________________________ 9

   APPENDIX A
      Scope and Methodology _______________________________ 21
      Review of Internal Controls ____________________________ 23
      Prior Coverage ______________________________________ 23

   APPENDIX B
      NEO Program Assets and Related Initiatives _______________ 24

   APPENDIX C
      Summary of Observatory Statistics ______________________ 28

   APPENDIX D
      Management Comments ______________________________ 29

   APPENDIX E
      Report Distribution ___________________________________ 32




REPORT NO. IG-14-030
SEPTEMBER 15, 2014




                                                                                    INTRODUCTION

Background

   Scientists classify comets and asteroids that pass within 28 million miles of Earth’s orbit
   as near-Earth objects (NEOs).9 Composed of rock, ice, and organic compounds, comets
   are thought to originate from an area beyond the orbit of Pluto but occasionally have
   orbits that bring them closer to the Sun where they heat up and may display a visible
   atmosphere and tail due to the effects of solar wind and radiation. Asteroids are primarily
   rocky or metallic bodies that orbit the Sun, with most residing in the main asteroid belt
   between Mars and Jupiter. Asteroids that collide and break into smaller fragments are the
   source of most NEOs. Fragments of comets or asteroids that enter the Earth’s
   atmosphere are known as meteors. Most meteors are small and vaporize in the Earth’s
   atmosphere as “shooting stars” before reaching the planet’s surface. A meteor that
   reaches the Earth’s surface is known as a meteorite.

   Every day more than 100 tons of meteors bombard the Earth. Although the vast majority
   of these objects disintegrate before reaching the planet’s surface, objects larger than
   100 meters (328 feet) may survive the descent, hit the ground, and cause destruction in
   and around the impact site. Moreover, even smaller objects that enter the Earth’s
   atmosphere and disintegrate before reaching the surface can cause significant damage.
   For example, on February 15, 2013, an 18-meter (59 foot) meteor exploded 14.5 miles
   above the city of Chelyabinsk, Russia, with the force of 30 atomic bombs, blowing out
   windows, destroying buildings, injuring more than 1,000 people, and raining down
   fragments along its trajectory.10 Recent research suggests that Chelyabinsk-type events
   occur every 30 to 40 years with a greater likelihood of impact in the ocean than over
   populated areas.

   Although the probability of a meteor 1 kilometer (3,280 feet) or larger striking the Earth
   is extremely remote, the consequences of such an impact would be severe. On
   May 31, 2013, a massive asteroid 2.7 kilometers (1.6 miles) in diameter passed within
   5.8 million kilometers (3.6 million miles) of Earth or about 15 times the distance from the
   Earth to the Moon. Had an object this size struck the Earth, the resulting debris would
   likely have contaminated the Earth’s atmosphere, causing partial obstruction of sunlight,
   acid rain, and firestorms. In a dramatic example of this phenomenon, scientists believe
   that a 10-kilometer wide (6.2 mile) meteorite struck Mexico’s Yucatan Peninsula about
   66 million years ago, perhaps contributing to the extinction of the dinosaurs. Table 1
   summarizes impact frequencies based on meteor size.

   9
        Astronomers Carl Gustav Witt and Auguste Charlois are credited with discovering the first NEO in 1898.
   10
        The Chelyabinsk meteor was the largest reported since 1908 when a meteor hit Tunguska, Siberia, and
        flattened more than 772 square miles of forest. Scientists believe that between 9,000 and 13,000 pounds
        of the Chelyabinsk meteor fell to Earth in various size fragments. One fragment weighing approximately
        1,400 pounds was recovered from a lake about 45 miles east of the city.



REPORT NO. IG-14-030                                                                                              1
                                                                                                        INTRODUCTION



                 Table 1. Approximate Impact Frequencies and Consequences from
                                       Near-Earth Objects
                                           Diameter of Object          Impact Energy            Average Impact
              Type of Event
                                               (meters)                 (megatons)a             Interval (years)
        High altitude break-up                                < 30                     <5                      1–50
        Tunguska-like event                                   > 30                     >5                   250–500
        Regional event                                       > 140                 ~150                        5,000
        Large sub-global event                               > 300                ~2,000                      25,000
        Low global effect                                    > 600               ~30,000                      70,000
        Medium global effect                               > 1,000              >100,000                    1 million
        High global effect                                 > 5,000           > 10 million                   6 million
        Extinction-class event                            > 10,000           >100 million                 100 million
    aA megaton is a unit of measurement describing the amount of energy released from an explosion. One megaton
     equals the amount of energy released from one million tons of TNT.
    Source: NASA.

    Legislative Directives and National Research Council Findings. NASA conducts
    scientific workshops and performs research into identifying and characterizing the
    physical and orbital properties of and tracking NEOs.11 The Agency also funds and
    conducts research into mitigating potentially hazardous NEOs. In 1992, NASA issued a
    report concluding NEOs with a diameter larger than 1 kilometer posed the greatest hazard
    to Earth and posited that a comprehensive survey could identify most NEOs of this size
    within a decade.12 In 1994, the House Committee on Science, Space, and Technology
    requested NASA identify and catalogue within 10 years the orbital characteristics of all
    comets and asteroids that are greater than 1 kilometer in diameter and are in an orbit
    around the Sun that crosses the orbit of the Earth.13 Thereafter, NASA’s Authorization
    Act of 2005 required the Agency to implement a “program to detect, track, catalog, and
    characterize the physical characteristics of near-Earth objects equal to or greater than
    140 meters in diameter in order to assess the threat of such near-Earth objects to the
    Earth” and set a goal of cataloguing 90 percent of these objects by 2020.14 The law also
    amended the National Aeronautics and Space Act of 1958 and additionally required
    NASA use its skills to “provide warning and mitigation of the potential hazard of such
    near-Earth objects to the Earth.”15

    In 2010, the National Research Council (NRC) issued a report finding NASA would not
    meet the goal of identifying 90 percent of NEOs larger than 140 meters by 2020 due to
    insufficient resources.16 The NRC identified two approaches to reach the goal by

    11
         As discussed in more detail later in this report, characterizing the physical and orbital properties of a
         NEO is required to determine its threat potential and to plan any necessary mitigation efforts.
    12
         The Spaceguard Survey, “Report of the NASA International Near-Earth-Object Detection Workshop,”
         January 25, 1992.
    13
         United States Congress, H. R. 4489, Report No. 103–654, August 3, 1994.
    14
         Pub. L. No. 109–155, December 30, 2005 (codified at 42 U.S.C. § 16691).
    15
         42 U.S.C. § 2451(g).
    16
         NRC, “Defending Planet Earth: Near Earth Object Surveys and Hazard Mitigation Strategies,” 2010.



2                                                                                              REPORT NO. IG-14-030
INTRODUCTION



   2030 depending on the priority policymakers attached to the issue. Specifically, if
   finishing the survey as soon as possible was most important, the NRC recommended
   using a space-based telescope in concert with observations from suitable ground-based
   telescopes. If conserving costs was a higher priority, the NRC suggested using only large
   ground-based telescopes.

   The NRC report recommended NASA be directed to monitor objects as small as 30 to
   50 meters in diameter. In addition, the NRC suggested the United States organize an
   international entity to develop a detailed plan for addressing NEO hazards and NASA
   and the National Science Foundation (NSF) support a vigorous program of observation at
   the Arecibo Observatory in Puerto Rico (Arecibo) and Goldstone Deep Space
   Communications Complex in California (Goldstone), both of which play an important
   role in determining the orbits and characterizing the properties of NEOs.

   NASA has surveyed about 95 percent of the known population of NEOs 1 kilometer or
   larger and significantly increased efforts to locate and characterize NEOs between
   140 meters and 1 kilometer. As of July 2014, approximately 11,230 NEOs have been
   identified of which 862 have diameters of approximately 1 kilometer or larger. In
   addition, NASA estimates that it has identified approximately 10 percent of all asteroids
   140 meters and larger. Moreover, NASA has classified 1,492 NEOs as potentially
   hazardous objects (PHOs), meaning they have orbits predicted to come within roughly
   4.6 million miles of Earth’s orbit and exceed about 150 meters (500 feet) in diameter.
   Figure 3 illustrates the quantity of known asteroids by size as of July 2014.




REPORT NO. IG-14-030                                                                           3
                                                                                                     INTRODUCTION



                           Figure 3. Sizes of Near-Earth Asteroids Discovered




     Note: Comet size is unknown; therefore, the 94 known near-Earth comets are not included.
     Source: NASA.

    NASA’s NEO Program. In 1998, NASA established a NEO Program Office in the
    Science Mission Directorate’s Planetary Science Division to coordinate its NEO-related
    efforts.17 The Program Executive sits at NASA Headquarters and is responsible for
    overall execution of the NEO Program and oversight of related grants and contracts. The
    Executive is the only NEO Program employee at Headquarters. The other major parts of
    the Program are the Minor Planet Center in Cambridge, Massachusetts, and the NEO
    Program Office at the Jet Propulsion Laboratory (JPL).

    NASA funds the Minor Planet Center through a 5-year, $6.3 million grant. Hosted by the
    Harvard-Smithsonian Center for Astrophysics, the Center is an international
    clearinghouse for small body observational data under the authority of the International
    Astronomical Union. A director, two investigators, and three information technology
    employees staff the Center.

    The NEO Program Office receives, refines, and publishes data on the orbits and impact
    likelihood of objects reported to the Minor Planet Center. NASA funds the Office
    through a 14-year, $8.9 million task order issued pursuant to NASA’s larger contract with
    the California Institute of Technology to operate JPL. The Office has six employees –
    a manager, four research scientists, and an information technology specialist.18
    17
         NASA refers to this research effort in various documents as the Near-Earth Object Observations
         Program. For ease of reference, we use “NEO Program” or “the Program” in this report.
    18
         The JPL NEO Office works with the European Space Agency’s Near Earth Objects - Dynamic Site on
         issues of mutual interest.



4                                                                                               REPORT NO. IG-14-030
INTRODUCTION



   Since 1998, NASA has spent about $100 million in NEO-related efforts using funds from
   the Science Mission Directorate’s Planetary Science Research Program. Over the past
   5 years, the annual budget has grown from approximately $4 million in fiscal year (FY)
   2009, to $20 million in FYs 2011 through 2013, to $40 million in FY 2014.19

   NEO Program Operations. NEO Program operations consist of three major elements:
   detection and notification, characterization and cataloging, and mitigation (see
   Appendix B for more detail on the Program assets that support these elements).

         Detection and Notification. The ability to detect a NEO is dependent on the object’s
          distance from the Earth; its size and location relative to the Sun; and how well light
          reflects from its surface, also known as its “albedo.” It is extremely difficult, if not
          impossible, to detect a NEO that is near or, as observed from Earth, positioned in
          front of the Sun. The NEO Program provides funds to three survey teams that operate
          five ground-based telescopes to detect NEOs – the Catalina Sky Survey (Catalina),
          Lincoln Near-Earth Asteroid Research (LINEAR), and Panoramic Survey Telescope
          and Rapid Response System 1 and 2 (Pan-STARRS). Together these teams have
          reported approximately 73 percent of all NEO observations recorded by the Minor
          Planet Center. To supplement these Earth-based surveys, in September 2013 NASA
          reactivated and reprogrammed its Wide-field Infrared Survey Explorer (WISE)
          telescope to search for NEOs.20 Renamed NEOWISE, this space-based infrared
          telescope is particularly useful for discovering dark-colored asteroids that are
          extremely difficult to detect with ground-based telescopes.

         Characterization and Cataloging. To determine threat potential and plan any
          necessary mitigation efforts, scientists must characterize the composition, size, shape,
          and orbital properties of a NEO. For example, a NEO composed of iron is denser
          than one composed of rock and therefore more likely to survive the descent through
          Earth’s atmosphere. Moreover, to plan effective mitigation efforts authorities need to
          know a NEO’s path and likely impact site. The NEO Program provides funding to
          Arecibo and Goldstone to assist in the effort to characterize NEOs and the Minor
          Planet Center and the NEO Program Office maintain a catalog of the characteristics
          of specific NEOs.




   19
        In FY 2009, the NEO Program received an additional $1.9 million from the Science Mission
        Directorate’s Planetary Research and Analysis budget.
   20
        Launched in December 2009, NASA placed WISE into hibernation in February 2011 after it had
        completed its original mission of surveying the sky in infrared light to look for dwarf stars and
        undiscovered asteroids.



REPORT NO. IG-14-030                                                                                        5
                                                                                                    INTRODUCTION



          Mitigation. Mitigation is the means of defending Earth and its inhabitants from the
           effects of NEO impacts. Mitigation may take the form of civil defense efforts such as
           emergency evacuations or efforts to deflect the trajectory of an object such as
           “slow-push” or “slow-pull,” kinetic impact, or nuclear explosions in space.21 The
           NEO Program devotes about $1 million annually or 7 percent of its overall funding to
           the study of mitigation strategies.

    The NEO Program implemented the process illustrated in Figure 4 to meet the goal of
    identifying, characterizing, and mitigating NEOs of 140 meters or larger.

                                Figure 4. NEO Program Operation Process




    Note: Minor Planet Center (MPC).
    Source: NASA.

    Generally, professional and amateur astronomers report their observations of possible
    NEOs to the Minor Planet Center, which acts as a repository for this information (see
    Appendix C for a list of NASA-funded and other observatories). The Center collects,
    catalogs, and disseminates for further analysis information about NEOs so that scientists
    21
         The “slow-push” and “slow-pull” methods involve a propulsion device or other large body positioned
         near an object to change its orbit and avoid collision with Earth. The technique takes considerable time
         to implement – on the order of decades – and would only be effective for objects with diameters no
         larger than 100 meters. Kinetic impactors change a NEO’s orbit by striking it directly at high speed.
         The nuclear option is the last resort because of concerns over uncontrolled fragmentation.



6                                                                                           REPORT NO. IG-14-030
INTRODUCTION



   can characterize the objects and authorities can plan any necessary mitigation efforts.
   Accordingly, the Center is a critical element in NASA’s NEO Program and vital to the
   Program’s success. By comparing reported objects to a database of known orbits, the
   Center’s automated computer system verifies and validates reported objects to determine
   if they represent a new discovery. In the case of a new discovery, the Center calculates
   and publishes an initial orbit so that observatories throughout the world can search for
   and confirm the object’s existence. If a NEO is determined to be an unidentified PHO
   with a potential for impact, NEO Program Office personnel use the Sentry System, an
   automated collision monitoring system, to continually scan the most current asteroid
   catalog and conduct a more detailed and refined analysis. The Program attempts to
   determine the precise orbit of NEOs, publishes results of its research, and requests
   follow-up observations from the scientific community. Previously reported data is
   continually refined to determine whether a PHO has the potential to affect the Earth in
   the next 100 years. If the Program Office determines there is no potential for harm, it
   works with the Minor Planet Center to refine and reconcile any differences in orbital
   calculations.

   An example of this process is Asteroid 2014 AA, a 2–3 meter (7–10 foot) asteroid first
   detected by a team at California’s Catalina Sky Survey Lunar and Planetary Laboratory
   between 1:18 a.m. and 1:46 a.m. Eastern Standard Time on January 1, 2014. The
   Catalina team quickly determined a potential impact trajectory of the asteroid and
   reported their findings to the Minor Planet Center. The Center and the NEO Program
   Office each performed independent orbit calculations and correctly predicted Asteroid
   2014 AA would enter the Earth’s atmosphere and travel along an arc extending from
   Central America to East Africa, with impact most likely to occur off the coast of West
   Africa at approximately 9:00 p.m. Eastern Standard Time that same day.

   Related NASA and Federal Government Initiatives. The NEO Program provides
   funding to several other related NASA projects, including the Ka-Band Objects
   Observation and Monitoring Project (KaBOOM), the Asteroid Terrestrial-impact Last
   Alert System (ATLAS), and the NEO Camera (NEOCam) infrared space telescope.22 In
   addition, Program personnel contribute to NASA’s Asteroid Redirect Mission and
   Origins-Spectral Interpretation-Resource Identification-Security-Regolith Explorer
   Project (OSIRIS-Rex).23 Other Federal agencies are also involved in NEO-related
   initiatives, including the Defense Advanced Research Projects Agency (DARPA), the
   NSF, and the Department of Energy. See Appendix B for more detail on these initiatives.


   22
        The KaBOOM Project is an array of radar dishes that could provide tracking and characterization of
        NEOs at much further distances and far higher resolution than currently available. ATLAS is a NEO
        detection system comprised of eight ground-based telescopes. NEOCam uses heat to detect NEOs.
        See Appendix B for more detail on these systems.
   23
        The objective of the Asteroid Redirect Mission is to identify, capture, and redirect by the first half of the
        next decade a small asteroid into a stable lunar orbit for further exploration. In 2016, NASA intends to
        launch OSIRIS-Rex to an asteroid and use a robotic arm to collect samples that could better explain our
        solar system’s formation and how life began. Because the spacecraft will spend a significant amount of
        time at the asteroid – up to 2.5 years – the mission could help improve asteroid orbit predictions.



REPORT NO. IG-14-030                                                                                                    7
                                                                              INTRODUCTION



Objectives

    We initiated this review to examine NASA’s NEO Program and assess the Agency’s
    progress toward meeting statutory and other Program goals. Specifically, we reviewed
    NASA’s allocation and use of resources and plans for the Program’s future. See
    Appendix A for details of the review’s scope and methodology, our review of internal
    controls, and a list of prior coverage.




8                                                                       REPORT NO. IG-14-030
RESULTS




                                 EXISTING NEO PROGRAM MANAGEMENT
                                  STRUCTURE NOT COMMENSURATE WITH
                                 INCREASED RESOURCES AND EXPANDED
                                                  RESPONSIBILITIES

          We found that NASA has organized its NEO Program under a single Program
          Executive who manages a loosely structured conglomerate of research activities that
          are not well integrated and lack an overarching framework with Program oversight,
          objectives, and established milestones to track progress. In addition, NASA is
          undertaking NEO-related activities not managed by the Program and not sufficiently
          integrated into Program activities. Furthermore, NASA lacks formal agreements or
          procedures for NEO-related activities it conducts with other Federal agencies and
          foreign governments and has not taken advantage of some partnership opportunities.
          Consequently, Program managers could not identify the level of resources required
          to support the Program adequately or explain how some activities to which the NEO
          Program is contributing further Program goals. Even though the Program has
          discovered, categorized, and plotted the orbits of more than 11,000 NEOs since
          1998, NASA will fall short of meeting the 2005 Authorization Act goal of finding
          90 percent of NEOs larger than 140 meters in diameter by 2020. In sum, we believe
          the Program would be more efficient, effective, and transparent were it organized
          and managed in accordance with standard NASA research program requirements.

Lack of Structure and Limited Resources Hinders the NEO
  Program

   Since implementation of the NEO Program, the number of identified NEOs has increased
   dramatically from less than 500 in 1998 to over 11,000 as of July 2014, including nearly
   900 objects larger than 1 kilometer in diameter (see Figure 5). Most of this work
   occurred while the Program was relatively small – receiving only $4 million annually
   from FYs 2002 through 2009 and funding less than 20 individual efforts – and focused on
   identifying the largest NEOs. However, with the 2005 statutory directive to identify
   90 percent of NEOs larger than 140 meters, a substantially increased budget beginning in
   FY 2011, and additional research projects, the existing programmatic structure and
   resources are not sufficient to provide for efficient, effective, and transparent program
   management.




REPORT NO. IG-14-030                                                                            9
                                                                                                                RESULTS



                          Figure 5. Number of Near-Earth Objects Discovered




      Note: Near-Earth asteroids (NEA). Comet size is unknown; therefore, 94 known near-Earth comets are only
      accounted for in the total population of all NEOs.
      Source: NASA.

     NASA has placed overall Program responsibility in a single Program Executive at
     Headquarters who has no dedicated staff to assist with Program oversight. In FY 2013,
     the Program Executive oversaw a budget of $20.5 million and 64 funding instruments,
     including grants, purchase orders, and contract task orders to observatories and other
     facilities. More than half of these instruments exceeded $100,000, and nine involved
     more than $1 million in annual funding. With the Program budget growing to
     $40 million in FY 2014, the number of funding instruments will likely also increase, and
     with it the Program Executive’s oversight responsibilities.

     In addition to limited personnel, the NEO Program lacks a plan with integrated
     milestones, defined objectives, and cost and schedule estimates to assist in tracking and
     attaining Program goals. Although the Program Executive described the NEO Program’s
     primary objective as finding as many asteroids as possible as quickly as possible, NASA
     has no structure or metric to evaluate the Program’s effectiveness in reaching this
     objective.

     Moreover, to meet the 2005 Authorization Act goal, the NEO Program provided support
     for ground-based telescopes with larger cameras and more sophisticated data acquisition,
     processing, and dissemination systems and obtained additional observation time at
     Pan-STARRS for detection of objects and at Arecibo for characterization. In addition,
     the Program funded research studies related to the mitigation of NEO hazards and
     supported demonstration projects such as ATLAS and the KaBOOM Project.




10                                                                                           REPORT NO. IG-14-030
RESULTS



   In addition to NEO-specific activities, the Program supports the work of other NASA
   initiatives, including the Asteroid Redirect Mission. NEO Program personnel also
   provide technical support for a Space Act Agreement with the B612 Foundation to help
   develop a privately funded, space-based, infrared telescope. In FY 2014, the Program
   also began funding the Antarctic Search for Meteorites Project (together with the NSF
   and the Smithsonian Institution) that sends researchers to Antarctica to collect and deliver
   meteorites to the Smithsonian Institution for permanent storage. Despite this increased
   activity, NASA has not changed or improved the NEO Program management structure
   and the Program has not established a plan to integrate the additional initiatives or
   demonstrate and track their contributions to attainment of NEO Program goals.

   NASA Policy Directive (NPD) 7120.4D sets forth requirements for planning, tracking the
   progress of, and accomplishing mission objectives for Agency programs and projects. 24
   In addition, NASA Procedural Requirements (NPR) 1080.1A requires research and
   technology program leads to demonstrate the relevance, quality, and performance of their
   program investments; demonstrate that their programs have well-conceived plans
   identifying goals, priorities, and linkages to national and stakeholder or beneficiary
   needs; and justify how funds will be allocated to ensure quality.25 The NPR also requires
   programs to establish plans and processes to monitor and document performance,
   including appropriate outcome measures and milestones to track progress toward goals
   and assess whether funding needs to be increased or redirected.

   Further, to achieve technical objectives within cost and schedule constraints, NPR 7120.8
   requires project leads to establish a Work Breakdown Structure, a project schedule with
   milestones for each element in the Structure, and an allocation of the project’s available
   resources necessary to achieve each milestone.26 In addition, the milestones should be set
   at intervals sufficient to demonstrate steady progress toward achieving overall key
   decision points, as shown in Figure 6.




   24
        NPD 7120.4D, “NASA Engineering and Program/Project Management Policy,” March 16, 2010.
   25
        NPR 1080.1A, “Requirements for the Conduct of NASA Research and Technology (R&T),” May 30,
        2008.
   26
        NPR 7120.8, “NASA Research and Technology Program and Project Management Requirements
        (w/change 3 dated 04/18/13),” February 5, 2008.



REPORT NO. IG-14-030                                                                                 11
                                                                                                                                                  RESULTS



                                   Figure 6. Research and Technology Program Life Cycle

                   Pre-                                    Approval                                       Program
     Life-cycle                       Formulation
      Phases       formulation                                                                         Implementation

                   Program            KDP 0                       KDP I
   Program Life      Start                                                                                                                              KDP V
   Cycle Gates                                                                                                                                       (termination)
                                                                                                           KDP II, III, IV
   and Major
   Events
                     Program
                   Formulation        Program Commitment
   Major           Authorization              Program Plan
   Program
   Reviews                                                            Program Status           Program Status            Program Status
                                    Formulation Review                   Review                   Review                    Review
                                   (Internal Component)


   Independent                       Formulation Review                Independent                                           Independent
   Assessments                      (External Component)               Assessment                                            Assessment




   Projects
                                              Initial Projects



                                                                                     Added Project




                                                                                                                                  Added Project


Note: Key decision point (KDP).
Source: NPR 7120.8.

              Because it lacks a program plan with associated cost estimates, NASA could not identify
              resources required to adequately support the Program, explain how some of the efforts to
              which the NEO Program contributes further Program goals, or predict when statutory
              goals would be met. For example, the NEO Program does not have an integrated plan for
              how it will contribute to the development or use NEOCam, the KaBOOM radar array, or
              information from the OSIRIS-Rex mission. Moreover, the manner in which the
              developmental paths for these projects are coordinated with NEO Program requirements
              is not clear since there is no integrated timeline or requirement for the projects to report
              milestones.

              We believe the NEO Program would be better equipped to manage its various funding
              initiatives, support related NASA initiatives, and meet Program goals if it utilized clear,
              concise, verifiable, and valid requirements pertaining to NEO detection, characterization,
              and mitigation and followed NASA’s policies for research programs and projects.
              Without an appropriate management and staffing structure, the Program Executive is
              unable to evaluate needs compared to requirements and effectively communicate those
              needs to stakeholders.


        12                                                                                                                   REPORT NO. IG-14-030
RESULTS



NASA Needs to Improve its Oversight of NEO Grants and Task
 Orders

   NASA’s controls for managing and overseeing costs associated with the NEO Program
   are inadequate to ensure proper accounting of NASA-funded grants and task orders.
   Specifically, due to a lack of personnel and internal controls the Program lacks adequate
   segregation of duties and sufficient oversight of grants and contracts by management. In
   addition, the Program used grants when contracts were the more appropriate procurement
   vehicle, thereby reducing NASA’s ability to monitor grantees’ performance and
   deliverables.

   Inadequate Segregation of Duties. We found that contrary to effective internal control
   standards, the NEO Program Executive is responsible for or has significant input into all
   the primary elements of the award process. The Science Mission Directorate Management
   Handbook directs the Program Executive to review proposals for compliance with
   solicitations, identify and select panel members to review proposals, review panel
   recommendations, and make a recommendation for selection to the selection official – the
   Planetary Science Division Director.27 According to the Program Executive, neither the
   Director nor the NASA Shared Services Center have ever deviated from his award
   recommendations. In addition to these responsibilities, the Program Executive also serves
   as the Contracting Officer’s Technical Representative for all NEO Program awards. In that
   role, the Executive oversees, monitors, and evaluates the progress of all awards.
   Furthermore, the Executive reviews grantees’ annual progress reports and approves
   requests for additional funding as necessary. Although we did not find any instances, this
   multi-responsibility role increases the risk of error and fraud in the NEO Program.

   Government Accountability Office internal control standards provide that no single
   individual should control all important aspects of an event and key duties and
   responsibilities need to be divided among different individuals to reduce the risk of error
   or fraud in Federal programs.28 This includes separating responsibility for authorizing,
   processing, recording, and reviewing transactions, as well as handling any related assets.
   Furthermore, an Association of Certified Fraud Examiners study reviewing 1,843 cases
   of occupational fraud in the United States and more than 100 other countries involving
   more than $18 billion in losses found that a lack of internal controls, including failure to
   segregate duties, contributed to fraud in 37.8 percent of cases.29 Accordingly, having the
   Program Executive perform all of the duties outlined above increases the risk of error or
   fraud in the NEO Program.


   27
        Final awards are typically made by the NASA Shared Services Center – a partnership between NASA
        and a contractor that consolidates certain support functions such as financial management, human
        resources, information technology, and procurement.
   28
        Government Accountability Office, “Standards for Internal Control in the Federal Government”
        (AIMD-00-21.3.1, November 1999).
   29
        Association of Certified Fraud Examiners, “Report to the Nations on Occupational Fraud and Abuse:
        2010 Global Fraud Study” (2010).



REPORT NO. IG-14-030                                                                                        13
                                                                                                                RESULTS



     Inadequate Oversight and Inappropriate Use of Funding Instruments. We reviewed
     all awards exceeding $900,000 funded by the NEO Program during FY 2013. These six
     grants, three task orders (contracts), and one interagency transfer accounted for
     67 percent of the NEO budget that year (see Table 2).30

           Table 2. Summary of Reviewed Grants, Task Orders, and Interagency Transfer
                    Task Title                   Task Organization            Award Type        FY 2013 Funding
          Near Earth Object Program
                                               JPL                             Task Order                $1,131,936
          Office
          Primitive Body Navigation            JPL                             Task Order                  1,061,736
          NEOWISE Data Analysis                JPL                             Task Order                       900,000
          Lincoln Near Earth Asteroid          Massachusetts Institute of      Interagency
                                                                                                           1,220,524
          Research Program                     Technology/Lincoln Lab            Transfer
          Minor Planet Center Continued        Smithsonian Astrophysical
                                                                                  Grant                    1,155,869
          Operations                           Observatory
          Arecibo Radar Observations of
                                               Universities Space                                          1,966,453
          NEO and Other Solar System                                              Grant
                                               Research Association
          Bodies
          Expanded Arecibo Radar               Universities Space
                                                                                  Grant                    1,500,000
          Observation of NEAs                  Research Association
          Catalina Sky Survey: A
          Comprehensive Survey for Near        University of Arizona              Grant                    1,585,049
          Earth Objects
          Augmentation of Pan-STARRS
                                               University of Hawaii               Grant                    1,750,000
          for Pan-STARRS-2
          ATLAS – Asteroid Terrestrial-        University of Hawaii
                                                                                  Grant                    1,373,226
          impact Last Alert System             Institute for Astronomy
          Total                                                                                         $13,644,793
     Source: NASA Office of Inspector General analysis of NEO Program data.

     We found NASA did not adequately oversee, monitor, or evaluate the progress of the
     work performed pursuant to these awards. We also found three of the instruments issued
     as grants should have been contracts.

     In July 2013, the NEO Program Executive awarded the LINEAR Program a $6.5 million,
     5-year grant via an interagency transfer in spite of a steep decline in the Program’s ability
     to provide detection and follow-up observations. According to the LINEAR Principal
     Investigator, this decline relates to the decommissioning of the Program’s primary
     telescope, which was becoming increasingly ineffective in detecting smaller objects. The
     NEO Program Executive stated that the grant is also funding testing of a new Space
     Surveillance Telescope (SST) designed and operated by DARPA.31 However, the SST
     will transfer to Australia in 2015 and there is no official agreement with DARPA or
     30
          Interagency transfer is the transfer of funds from one Federal agency to another for the purpose of
          conducting research.
     31
          The SST is primarily intended to detect and track small objects in geosynchronous orbit, approximately
          22,000 miles above Earth.



14                                                                                           REPORT NO. IG-14-030
RESULTS



   Australia for the NEO Program to use the telescope after the transfer. Without such an
   agreement, it is uncertain what if any benefits the NEO Program will receive from this
   grant going forward.

   In another example, in 2012 NASA awarded a 5-year, $6.3 million grant to the
   Harvard-Smithsonian Center for Astrophysics to operate the Minor Planet Center. The
   Minor Planet Center Director told us that the Director of the Center for Astrophysics did
   not provide sufficient institutional support and infrastructure, citing the lack of an
   emergency generator and sufficient uninterruptable power supplies to allow for continued
   operations during a power outage or for routine maintenance. However, we found that
   the grant had limited requirements with respect to the grantee’s roles and responsibilities,
   and as a result the Program Executive was not in a position to remedy these issues.

   We also identified three instances in which the Program Executive awarded grants when
   contracts would have been the more appropriate instrument for achieving Program goals.
   Specifically, in October 2011 and September 2013 NASA awarded grants worth more
   than $10 million and $6 million, respectively, to the Universities Space Research
   Association for Program costs, operations, and maintenance of Arecibo. In January 2013,
   NASA awarded a 5-year, $5 million grant to the University of Hawaii System for
   construction and operational costs related to ATLAS. When we asked the Program
   Executive about these grants, he noted the difficulty of going through the formal
   procurement process required for contracts given his lack of staff support.

   Under Federal law, the Government may use a grant to “carry out a public purpose of
   support or stimulation,” and NASA often issues grants to obtain research related to its
   science and space activities.32 While grants offer greater flexibility and reduced
   administrative burden to the Government, they also provide less certainty in terms of
   performance and deliverables. In contrast, contracts provide greater visibility into
   awardees operations and ensure the level of funding and performance is commensurate
   with requirements and deliverables and when the purpose is to acquire property or
   services for the Government.33

   Although part of the awards to Arecibo and ATLAS supported research, the majority of
   the funds were directed to facility construction, operations, and maintenance. During
   review of the Arecibo proposal, NASA Headquarters Office of Procurement and the
   Goddard Space Flight Center’s Office of Chief Counsel informed the Program Executive
   that a contract was the more appropriate procurement instrument. In May 2012, the
   Program Executive received contradictory advice from the NASA Headquarters Office of
   General Counsel that stated, “…there is a basis to keep it a grant. In fact, it would be
   unnecessary and counterproductive to shift to a contract mechanism,” and “…because
   NASA is supplementing support of a federal activity that is primarily funded and
   managed by NSF [National Science Foundation], which has chosen a grant mechanism.”

   32
        31 U.S.C. § 6304, “Using Grant Agreements.”
   33
        31 U.S.C. § 6303, “Using Procurement Contracts.”



REPORT NO. IG-14-030                                                                              15
                                                                                                            RESULTS



     However, in October 2011 the NSF did not use a grant, but awarded a 5-year, $42 million
     cooperative agreement to the Stanford Research Institute to manage, operate, and
     maintain the Arecibo Observatory. In our judgment, using contracts in these instances
     would have benefitted the Program and provided greater visibility into Arecibo’s
     operations as well as provide assurance that the level of funding and performance was
     commensurate with contractual requirements. Moreover, given that funding for the NEO
     Program has grown ten-fold since 2009, we believe the Program needs more personnel to
     ensure proper oversight of associated research and procurement awards. The Program
     Executive agreed, suggesting the Program requires a minimum of four to six full-time
     equivalent positions to be fully effective.34

Lack of Formal Agreements with International and Federal
   Partners Hampers NASA’s Ability to Accomplish Program Goals

     Pursuant to Presidential Policy Directive, NASA is required to “[p]ursue capabilities, in
     cooperation with other departments, agencies, and commercial partners, to detect, track,
     catalog, and characterize near-Earth objects to reduce the risk of harm to humans from an
     unexpected impact….”35 Although NASA has established two formal partnerships
     related to NEOs, lack of planning and resources has prevented the NEO Program from
     developing additional partnerships that could help achieve Program goals. Moreover, the
     NEO Program has not taken advantage of existing knowledge within NASA regarding
     forming partnerships. Expanded partnerships could increase the number of NEOs
     discovered, aid in development of mitigation strategies, and help ensure the burden of
     mitigating NEO threats does not fall disproportionately on NASA and the United States.

     Existing Partnerships. Partnerships are an increasingly important component of
     NASA’s overall mission strategy. With regard to NEOs, NASA has established formal
     partnerships with two organizations – the B612 Foundation and Planetary Resources.
     Through these partnerships, NASA supported development of a privately funded,
     space-based, infrared telescope by the B612 Foundation and an effort by Planetary
     Resources to create a crowdsourcing algorithm related to NEO survey work.

     In addition to these formal partnerships, NASA has also entered into a number of
     informal international partnerships. For example, the NEO Program is a leading
     participant in the United Nations Committee on the Peaceful Uses of Outer Space. Over
     the past several years, a working group of the Committee’s Scientific and Technical
     Subcommittee has studied NEOs and recently made recommendations to broaden and
     strengthen international cooperation and collaboration and called for national space




     34
          Full-time equivalent refers to the number of hours worked that add up to one full-time employee working
          an 8-hour day, 5 days a week for 52 weeks.
     35
          Presidential Policy Directive 4, “National Space Policy of the United States of America,” June 28, 2010.



16                                                                                          REPORT NO. IG-14-030
RESULTS



   agencies to form a group focused on designing a set of standard, agreed upon missions
   for deflecting NEOs.36

   NEO Program initiatives have also resulted in informal partnerships. For example, the
   Catalina and Pan-STARRS observatories have taken first steps towards coordinating their
   survey efforts to ensure they are not duplicating efforts. In our judgment, the NEO
   Program Executive should replicate this model and establish a systematic process to
   improve observational efficiency and telescope utilization among international entities,
   intergovernmental organizations, and Program participants.

   The NEO Program Could Leverage Agency Experience to Form Partnerships. A
   number of NASA programs and offices, including the International Space Station
   Program, NASA’s Office of International and Interagency Relations, and the Office of
   the Chief Technologist, have formal agreements or help promote partnerships with
   international and domestic partners regarding various aspects of their goals and
   respective missions. The NEO Program may be able to leverage the knowledge of these
   organizations to establish agreements of its own. For example, NASA established the
   Global Exploration Roadmap with foreign space agency members of the International
   Space Exploration Coordination Group.37 One of the Global Exploration Roadmap’s
   goals is “Enhancing Earth Safety” by contributing to the “collaborative pursuit of
   planetary defense and orbital debris management mechanisms.” Citing the NEO Program
   as one of NASA’s efforts in fulfilling this goal could create opportunities for partnerships
   between member countries and maximize access to and development of technology as
   well as augment mitigation investments.

   Partnerships Could Expand Access to Technological Assets and Spread the Burden
   of Detection and Mitigation. The 2005 Authorization Act directed NASA to detect
   NEOs and develop mitigation strategies to determine how to alter the path of or destroy
   PHOs. However, NASA’s lack of NEO Program partnerships and insufficient staff to
   pursue such partnerships limits the Nation’s ability to discover NEOs and weakens the
   Agency’s ability to plan for effective mitigation. For example, establishing formal
   partnerships with the Department of Defense and the NSF could give the NEO Program
   access to additional Earth-based telescopes, thereby enhancing sky-viewing capabilities
   and the ability to detect, track, and characterize a greater number of NEOs and PHOs and
   increasing the Program’s ability to plan for and implement effective mitigation strategies.
   Although, the NEO Program Executive told us he has had informal discussions with these
   agencies regarding use of their telescopes, we believe the Program Executive should
   leverage NASA’s Office of International and Interagency Relations and the Office of
   Chief Technologist to expedite formation of agreements.

   36
        United Nations Committee on the Peaceful Uses of Outer Space, Report of the Scientific and Technical
        Subcommittee on its fifty-first session, held in Vienna from 10 to 21 February 2014 (Vienna: United
        Nations, 2014), available from http://www.oosa.unvienna.org/pdf/reports/ac105/AC105_1065E.pdf (last
        accessed July 28, 2014).
   37
        The International Space Exploration Coordination Group is comprised of 14 space agencies with the goal
        to advance a long-range human space exploration strategy.



REPORT NO. IG-14-030                                                                                             17
                                                                                           RESULTS



     The NEO Program lacks a plan for establishing agreements with domestic and foreign
     entities to leverage capabilities or mitigate NEO threats and has not developed milestones
     to measure progress toward established goals. Due to the variety of possible sizes,
     trajectories, and warning times for PHOs, developing an appropriate mitigation response
     is extremely challenging. For example, PHOs larger than a few hundred meters in
     diameter would require enormous energies to deflect or fragment, as well as cooperation
     on the part of multiple nations. Although NEO Program managers stated they would
     alert the Federal Emergency Management Agency in the event of an impending PHO
     threat to the United States or the Department of State if predicted impact was outside the
     United States, there is no interagency agreement or formal procedure between the NEO
     Program and either agency, or with the Department of Defense and Department of
     Energy in the event a nuclear option is required.

     NEO Program management told us that if given the opportunity, they would like to form
     partnerships with the Russian and the European space agencies. The Russian Space
     Agency is considering forming a separate agency to monitor NEOs and the European
     Space Agency is building a 1-meter telescope intended to cover the entire sky every few
     nights to search for NEOs. Other countries have similar initiatives in planning or
     development.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response
     To improve NASA’s efforts to discover, characterize, and mitigate NEO threats, we
     recommended the Associate Administrator for the Science Mission Directorate:

     Recommendation 1. Develop a formal NEO Program in accordance with NASA
     policies that includes a strategic plan to obtain statutory and programmatic goals,
     integrated master schedule, and cost estimates.

        Management’s Response. The Associate Administrator concurred and agreed that
        managing the Program in accordance with NASA policies will maximize results and
        may reduce costs. The Associate Administrator expects the new Program plan will be
        in place by September 1, 2015.

        Evaluation of Management’s Response. Management’s comments are responsive;
        therefore, the recommendation is resolved and will be closed upon verification and
        completion of the proposed corrective actions.




18                                                                          REPORT NO. IG-14-030
RESULTS



   In addition, we recommended the Associate Administrator direct the NEO Program
   Executive to:

   Recommendation 2. Develop and implement requirements, procedures, and internal
   controls to address program deficiencies.

      Management’s Response. The Associate Administrator concurred and expects to
      develop requirements, procedures, and internal controls consistent with Agency
      policy by March 1, 2015.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.

   Recommendation 3. Perform a full-time equivalent analysis to determine the
   appropriate number of staff needed to manage, oversee, and administer the Program and
   associated funding instruments.

      Management’s Response. The Associate Administrator concurred, stating that a
      full-time equivalent analysis will be conducted by March 1, 2015.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.

   Recommendation 4. Develop a plan to establish formal, documented partnerships with
   domestic and international agencies to leverage resources and complementary
   technologies.

      Management’s Response. The Associate Administrator concurred, stating that the
      Program is on the proper course to establish the appropriate domestic and
      international partnerships and that a plan to establish formal, documented
      partnerships with domestic and international agencies will be developed by
      September 1, 2015.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.




REPORT NO. IG-14-030                                                                       19
                                                                                           RESULTS



     Recommendation 5. Establish a systematic oversight process pursuant to which
     NASA-funded observatories are required to coordinate with each other in order to avoid
     duplication of efforts.

        Management’s Response. The Associate Administrator concurred, stating the
        Program has already taken steps to ensure project activities are coordinated and will
        continue to do so. He also stated that a strategy for coordination of activities will be
        documented in the NEO Program Plan by September 1, 2015.

        Evaluation of Management’s Response. Management’s comments are responsive;
        therefore, the recommendation is resolved and will be closed upon verification and
        completion of the proposed corrective actions.




20                                                                            REPORT NO. IG-14-030
APPENDIXES




                                                                         APPENDIX A

Scope and Methodology

   We performed this audit from September 2013 through August 2014 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   We reviewed research and technology program requirements, grant and cooperative
   agreement requirements contained in the following NASA policies, as well as
   Center-specific policies that corresponded with NASA guidance, and public laws:

         National Aeronautics and Space Act, Pub. L No. 111–314, December 18, 2010.
         NPD 1080.1B, “Policy for the Conduct of NASA Research and Technology
          (R&T),” July 9, 2008.
         NPD 7120.4D, “NASA Engineering and Program/Project Management Policy,”
          March 16, 2010.
         NPR 7120.8, “NASA Research and Technology Program and Project
          Management Requirements, (w/change 3 dated 04/18/13),” February 5, 2008.
         NPR 1080.1A, “Requirements for the Conduct of NASA Research and
          Technology (R&T),” May 30, 2008.
         NPR 9680.1A, “NASA Financial Management of Grant and Cooperative
          Agreements,” November 10, 2011.
         Headquarters Science Mission Directorate (SMD) Handbook, February 8, 2008.
         Pub. L. No. 109–155, Subtitle C – George E. Brown, Jr., Near Earth Objects
          Survey Act, December 30, 2005.
         House of Representatives 6063, National Aeronautics and Space Administration
          Authorization Act of 2008 (Enrolled as Agreed to or Passed by Both House and
          Senate), Title VIII – Near Earth Objects, Section 801, “Reaffirmation of Policy.”
         31 U.S.C. § 6303, “Using Procurement Contracts.”
         31 U.S.C. § 6304, “Using Grant Agreements.”
         14 C.F.R. § 1260.13, Section A, “Grants and Cooperative Agreements.”


REPORT NO. IG-14-030                                                                          21
                                                                                                     APPENDIX A



     We reviewed internal control requirements contained in the Government Accountability
     Office’s “Standards for Internal Controls in the Federal Government,” November 1999,
     and Office of Management and Budget Circular A-123, “Management Responsibility for
     Internal Controls,” December 21, 2004.

     To determine whether the NEO Program devised an effective strategy to meet the
     findings and recommendations of the NRC, we interviewed NASA personnel, scientists,
     and astrophysicists about their roles and responsibilities. We assessed the NEO Program
     oversight procedures to determine whether oversight reviews were conducted as required.
     We also conducted fieldwork at the Minor Planet Center in Cambridge, Massachusetts,
     the Catalina Sky Survey in Arizona, and the KaBOOM Project at Kennedy Space Center.
     Further, we attended two conferences:

               Small Bodies Assessment Group, Washington, DC, January 2014
               International Asteroid Warning Network hosted by the Minor Planet Center,
                January 2014

     To assess whether funding and resources were adequately allocated, we judgmentally
     selected for review 10 funding instruments that exceeded $900,000, which included
     6 grants, 3 task orders, and 1 interagency transfer.

     To determine whether the NEO Program’s monitoring systems were adequately
     maintained and updated and that the data was effectively processed, communicated, and
     tracked, we reviewed the Minor Planet Center and JPL systems and databases.

     To assess NEO Program mitigation and partnership strategies, we interviewed scientists
     receiving NEO grants to determine whether any plans for mitigation existed and any
     agreements executed to form partnerships within the Federal Government or with
     international partners.

     Use of Computer-Processed Data. We used data from the Research and Analysis
     Program Tracking of Resources system to perform this audit.38 Although we did not test
     the general or application controls of the system, we did compare the information in the
     key data fields with our sample of funding instruments and supporting documents for the
     data and determined that the data was valid and reliable to support our objectives and
     conclusions.




     38
          The Research and Analysis Program Tracking of Resources system is a Science Mission Directorate
          web-based tool for tracking approved investigations and specifying the award funding vehicles and
          amounts.



22                                                                                        REPORT NO. IG-14-030
APPENDIX A



Review of Internal Controls

   We performed an assessment of the internal controls associated with NASA’s NEO
   Programs. Throughout the audit we reviewed controls associated with the audit
   objectives and determined that NASA’s internal controls and program oversight were
   inadequate to ensure proper segregation of duties and oversight and monitoring of NEO
   funding instruments.

Prior Coverage

   During the past 5 years, the NASA Office of Inspector General (OIG) and the
   Government Accountability Office have not issued any reports of particular relevance to
   the subject of this report. However, we issued NASA OIG, “NASA’s Grant
   Administration and Management” (IG-11-026, September 12, 2011), which identified
   systemic deficiencies in the administration and management of NASA’s grant program.
   We also relied on NASA OIG, “Federal Information Security Management Act: Fiscal
   Year 2013 Evaluation” (IG-14-004, November 13, 2013), to review systems and
   databases at JPL. Unrestricted reports can be accessed over the Internet at
   http://oig.nasa.gov/audits/reports/FY14.




REPORT NO. IG-14-030                                                                         23
                                                                                               APPENDIX B




                                                     NEO PROGRAM ASSETS AND
                                                         RELATED INITIATIVES

     The NEO Program operations consist of detection and notification, characterization and
     cataloging, and mitigation.

     Detection and Notification. The NEO Program provides funds to three survey teams
     that operate five ground-based telescopes to detect NEOs. The majority (73 percent) of
     the observations reported to the Minor Planet Center come from three survey teams:

           The Catalina Sky Survey (Catalina), including the Mount Lemmon Survey and
            the Siding Spring Survey, is based at the University of Arizona. A successful
            discovery program due to its comprehensive sky coverage and on site follow-up
            observation capabilities, in 2013, Catalina discovered more than 600 NEOs.
            Catalina observation time is split between detection and follow-up with
            approximately 20 percent devoted to post-discovery, follow-up observations that
            allow computation of an object's orbit.
           The Lincoln Near-Earth Asteroid Research (LINEAR) program at White Sands,
            New Mexico, is run by the Massachusetts Institute of Technology and leads in the
            discovery of NEOs larger than 1 kilometer. LINEAR uses electro-optical sensor
            technology developed for U.S. Air Force space surveillance applications to
            discover NEOs and is largely responsible for NASA successfully meeting the goal
            of finding 90 percent of the 1-kilometer and larger NEOs. LINEAR is fully
            dedicated to the NEO Program and schedules 20 to 25 nights per month for
            observations.
                                                             Figure 7. Pan-STARRS
           The Panoramic Survey
            Telescope and Rapid Response
            System 1 and 2 (Pan-STARRS)
            discovery telescope, run by the
            University of Hawaii's Institute
            for Astronomy, is a 1.8-meter
            telescope with a wide field of
            view and incorporating a very
            large camera on Haleakala in
            Maui, Hawaii (see Figure 7).
            The NEO Program funds
            approximately 11 percent of its
            total available observation time.
                                               Source: Institute for Astronomy, University of Hawaii. Photo by
                                               Rob Ratkowski.




24                                                                                REPORT NO. IG-14-030
APPENDIX B



   To supplement the three Earth-based surveys, in September 2013, NASA reactivated and
   reprogrammed the Wide-field Infrared Survey Explorer (WISE) telescope to search for
   NEOs.39 The telescope – renamed NEOWISE – is a space-based infrared telescope that
   can detect the ambient heat from asteroids. It is particularly useful for discovering dark
   colored asteroids that are extremely difficult to detect with ground-based conventional
   telescopes.

   Characterization and Cataloging. The interaction of radar signals with the surface of a
   NEO yields information about its physical characteristics, such as the NEO's size, shape,
   rotation characteristics, and whether it has any moons. For example, radar observations
   can be used to estimate the roughness of the top layer of a NEO’s surface, which could
   distinguish between stony and metallic compositions and may be used to estimate the
   porosity of a NEO’s surface and help in understanding its composition for developing
   mitigation strategies.40

   The NEO Program provides funding to two radar systems:

             Goldstone Solar System Radar                             Figure 8. Goldstone 70-meter
              (Goldstone), located in the Mojave                                 Telescope
              Desert in Southern California, is part
              of NASA’s Deep Space Network and
              is operated by JPL under contract with
              NASA (see Figure 8). Comprised of a
              fully steerable 70-meter-diameter
              antenna, this radar has a significant
              capability for observing NEOs in
              80 percent of the sky north of -35°
              latitude over the course of a day.
              The Goldstone antenna’s primary
              mission is spacecraft communications
              and therefore is available for
              astronomy observations only a few
              percent of its time.
             The Arecibo Observatory (Arecibo)        Source: NASA.
              in Puerto Rico is part of the National
              Astronomy and Ionosphere Center, a
              national research center operated by the Stanford Research Institute under a
              cooperative agreement with NSF. NASA provides additional support through
              grants with Universities Space Research Association. Its chief feature is a fixed
              305-meter-diameter spherical antenna that allows coverage directly overhead.
              Observing time at Arecibo is awarded on a competitive basis from proposals that

   39
        WISE launched in December 2009 and was placed in hibernation in February 2011 after completing its
        mission of surveying the sky in infrared light and discovering dwarf stars and new asteroids.
   40
        Porosity is the ratio of the volume of space to the total volume of a rock.



REPORT NO. IG-14-030                                                                                         25
                                                                                      APPENDIX B



            are normally submitted quarterly. Arecibo is also available for “urgent”
            target-of-opportunity observations on short notice and, in a small number of
            instances, has been used for radar observations of NEOs within 24 hours of their
            discovery.

     Mitigation. The NEO Program allocated about $1 million per year to study mitigation
     strategies, such as:

           NEO Observations Program Mitigation Effects grant, which is a comprehensive
            study of impact and explosion mitigation technologies for threatening asteroids;
           NASA Innovative Advanced Concepts Program, which studies entirely new or
            radically different mitigation strategies from American innovators and
            entrepreneurs; and
           Kinetic Impactor Demonstration Mission Studies, which include a mission
            concept for the use of two independent spacecraft, one impactor and one
            rendezvous probe, where the rendezvous probe would observe the impact of an
            asteroid and measure any change in the asteroids relative orbit.

Other Related NASA and Federal Government NEO Initiatives

     The KaBOOM Project is a capability demonstration project at Kennedy Space Center
     (see Figure 9). KaBOOM technology would be complimentary to other radar
     technologies by providing tracking and characterization at Ka-band frequencies for NEOs
     at much further distances and far higher resolution than currently available. Compared to
     NASA’s Goldstone 70-meter antenna,
     which can track an object that is about          Figure 9. KaBOOM Radar Array
     9 million miles away (in X-band
     frequencies) using an array of multiple
     radar dishes, KaBOOM may be able to
     track objects 47 million miles or more
     away – potentially providing more
     time for a mitigation strategy to be
     developed in the event of a PHO
     threat. However, Project managers
     stated development of the technology
     and system would take approximately
     7–8 years before it would be ready to
     deploy in a 24/7 operational radar        Source: NASA.
     array.

     The Asteroid Terrestrial-impact Last Alert System (ATLAS) is being developed by the
     University of Hawaii and intended to be operational in 2016. The array of eight
     telescopes is designed to offer a 1-week warning for a 50-yard-diameter asteroid, or “city
     killer,” and 3 weeks for a 150-yard-diameter “county killer,” which provides sufficient


26                                                                          REPORT NO. IG-14-030
APPENDIX B



   time to evacuate the area, take measures to protect buildings and other infrastructure, and
   be alert to a tsunami danger generated by ocean impacts.

   The NEO Camera (NEOCam) is a wide-field camera operating at thermal infrared
   wavelengths being developed at JPL and intended to be integrated onto a space-based
   telescope for the purpose of improving NEO detection capabilities. NEOcam is intended
   to be launched to a position about four times the distance between Earth and the moon,
   where it could observe NEOs without the impediments of cloud cover or daylight.
   However, there is presently no funding available to design and manufacture a spacecraft
   to carry the NEOCam payload.

   The Asteroid Redirect Mission that is being developed by NASA’s Human Exploration
   and Operations Mission Directorate aims to fulfill the President’s call to send astronauts
   to a near-Earth asteroid by 2025. The mission objective is to identify, capture, redirect,
   and sample an asteroid with a mass of up to about 1,000 tons into a stable lunar orbit by
   the first half of the next decade. NASA has stated that the mission would provide
   invaluable new data on the threats asteroids pose to Earth and how they could be
   mitigated.

   The Origins-Spectral Interpretation-Resource Identification-Security-Regolith Explorer
   (OSIRIS-Rex) mission, planned for launch in 2016, is designed to rendezvous with an
   asteroid and use a robotic arm to collect samples that could better explain our solar
   system's formation and how life began. The mission will be the first U.S. mission to
   carry samples from an asteroid back to Earth. Because the spacecraft will spend a
   significant amount of time at the asteroid – up to 2.5 years – the mission could help
   improve asteroid orbit predictions.

   The Defense Advanced Research Projects Agency’s Space Surveillance Telescope (SST)
   is a 3.5-meter telescope located within the White Sands Missile Range in New Mexico
   designed to enhance the nation’s deep space and small object surveillance capabilities.
   SST could improve the ability to determine the orbits of newly discovered objects and
   provide rapid observations of transient events and improvements in orbital prediction.
   NASA is testing the capability of SST and seeking to incorporate SST asteroid detections
   into the NEO Program.

   The Large Synoptic Survey Telescope (LSST), funding for which is provided by NSF,
   the Department of Energy, and private organizations, is being designed to produce a
   wide-field astronomical survey of our universe using an 8.4-meter ground-based
   telescope in Chile. From its mountaintop position, LSST will image the entire visible sky
   every few nights, thus capturing changes that could enable the detection of smaller
   NEOs. The LSST system is the only proposed astronomical facility that can detect
   140-meter objects in the main asteroid belt in less than a minute. However, the LSST is
   currently in its design and development phase and full science operations will not begin
   until approximately 2020.




REPORT NO. IG-14-030                                                                             27
                                                                                   APPENDIX C




                                                     SUMMARY OF OBSERVATORY
                                                                  STATISTICS


                 Summary of Top 20 Observatory Statistics for October 2013
                                                                         NEOs      NASA
                             Observatory Site                                      Funded
                                                                        Observed
     Astronomical Research Observatory, Westfield, Illinois               237       Yes
     Mt. Lemmon Survey, Tucson, Arizona                                   201       Yes
     Catalina Sky Survey, Tucson, Arizona                                 184       Yes
     Lunar Planetary Laboratory/Spacewatch II, Tucson, Arizona            149       Yes
     Tenagra II Observatory, Nogales, Arizona                             143       No
     Pan-STARRS 1, Haleakala, Hawaii                                      106       Yes
     Cerro Tololo Observatory, La Serena, Chile                            86       Yes
     Desert Moon Observatory, Las Cruces, New Mexico                       71       No
     Southern Observatory for NEAs Research Observatory, Oliveira,
     Brazil                                                                66       No
     Purple Mountain Observatory, XuYi Station, China                      41       No
     Steward Observatory, Kitt Peak-Spacewatch, Tucson, Arizona            32       Yes
     Palomar Mountain, Palomar Mountain, California                        29       No
     Klet Observatory, Czech Republic                                      25       No
     Arkansas Sky Observatory, Petit Jean Mountain South, Morrilton,
     Arkansas                                                              22        No
     McDonald Observatory-Las Cumbres Observatory Global Telescope,
     Goleta, California                                                    15       Yes
     International Scientific Optical Network-New Mexico Observatory,
     Mayhill, New Mexio                                                    14        No
     International Scientific Optical Network-Kislovodsk Observatory,
     Russia                                                                12        No
     Volkssternwarte Drebach, Schoenbrunn, Germany                         12        No
     University of Szeged, Piszkesteto Stn. (Konkoly), Hungary              7        No
     Mobile Astronomical System of the Telescope-Robots-II
     Observatory, Tunka, Russia                                            4         No




28                                                                        REPORT NO. IG-14-030
APPENDIX D




                       MANAGEMENT COMMENTS




REPORT NO. IG-14-030                         29
             APPENDIX D




30   REPORT NO. IG-14-030
APPENDIX D




REPORT NO. IG-14-030   31
                                                                              APPENDIX E




                                                          REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Associate Administrator
     Chief of Staff
     Associate Administrator for the Science Mission Directorate
     Director, Jet Propulsion Laboratory

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space




32                                                                    REPORT NO. IG-14-030
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Ronald Yarbrough, Project Manager
   Jiang Yun Lu, Auditor
   Anh Doan, Management Analyst
   Noreen Khan-Mayberry, Ph.D., Technical Evaluator
   Sarah McGrath, Report Process Manager




REPORT NO. IG-14-030                                                         33
                                                                            SEPTEMBER 15, 2014
                                                                    REPORT NO. IG-14-030




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
